Eleventh Circuit’s decision below

United States v. Owens, 808 Fed.Appx. 917 (2020)

808 Fed.Appx. 917
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.

Affirmed.
Procedural Posture(s): Appellate Review.
West Headnotes (5)
[1]

UNITED STATES of America, Plaintiff-Appellee,
v.
Sean Justin OWENS, Defendant-Appellant.

Synopsis
Background: Defendant was convicted in the United States
District Court for the Middle District of Florida, No. 3:18cr-00030-HLA-PDB-1, Henry Lee Adams, Jr., Senior District
Judge, of possessing a firearm as a convicted felon. Defendant
appealed.

Criminal Law
defenses

Elements of offense and

a number of felony convictions.
§§ 922(g),

[2]

18 U.S.C.A.

924(e).

Commerce
Weapons

[1] error in omission of element of knowledge of status as
convicted felon from indictment and jury instructions was not
plain error and thus did not require reversal;

Weapons and explosives
Miscellaneous particular issues

Federal statute prohibiting convicted felons from
possessing firearm that was “in or affecting
commerce” was not violation of commerce
clause power as applied to defendant, who
was convicted of possessing a firearm as a
felon, where Government presented testimony at
trial establishing that the firearm at issue was
manufactured in Connecticut and was shipped
to Florida before it was found in defendant’s
possession. U.S.C.A. Const. art. 1, § 8, cl. 3;

[2] federal statute prohibiting convicted felons from
possessing firearm that was “in or affecting commerce”
was not violation of commerce clause power as applied to
defendant;
[3] any error in trial court's determination that defendant's
state law crimes of prior drug convictions were temporally
distinct, as would support sentencing under Armed Career
Criminal Act (ACCA) after instant conviction, was not plain
error; and
[4] determination by trial court, rather than jury, that
defendant's prior crimes of conviction were committed on
different dates, as would support sentencing under ACCA, did
not violate Sixth Amendment right to jury trial.

Requisites and sufficiency

Error in omission of element of knowledge of
status as convicted felon from indictment and
jury instructions was not plain error and thus did
not require reversal of conviction for possessing
a firearm as a felon, where there was no doubt
that defendant knew of his status as a convicted
felon given that he had stipulated to fact that he
had been convicted of a crime punishable by term
of imprisonment for more than one year and that
he had served more than four years in prison for

No. 19-10822
|
Non-Argument Calendar
|
(April 7, 2020)

Holdings: The Court of Appeals held that:

Criminal Law
of accusation

18 U.S.C.A. § 922(g)(1).

[3]

Criminal Law
offenders

Habitual and second

Any error in trial court's determination
that defendant's state law crimes of prior
drug convictions were temporally distinct, as

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

1a

United States v. Owens, 808 Fed.Appx. 917 (2020)

would support sentencing under Armed Career
Criminal Act (ACCA) after instant conviction
for possessing firearm as felon, was not plain
error, where charging documents which led to
prior convictions showed that defendant sold
cocaine on three separate days over a one-week
18 U.S.C.A. § 924(e)(1).

period.

Maurice C. Grant, II, Federal Public Defender's Office,
Jacksonville, FL, Mara Allison Guagliardo, Federal Public
Defender's Office, Tampa, FL, for Defendant-Appellant
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 3:18-cr-00030-HLAPDB-1
Before JORDAN, NEWSOM, and GRANT, Circuit Judges.

[4]

Constitutional Law
offenders

Habitual and career

Sentencing and Punishment
and sufficiency of accusation

Opinion
PER CURIAM:

Requisites

Under Fifth Amendment, indictment was not
required to contain allegation that defendant's
prior crimes of conviction were committed
on different dates to allow defendant to be
sentenced, following instant conviction for
firearm possession as felon, under Armed
Criminal Career Act (ACCA). U.S. Const.
Amend. 5;

[5]

Jury

18 U.S.C.A. § 924(e)(1).

of
18 U.S.C. §§ 922(g) and
924(e). He raises five
issues, all for the first time on appeal. First, he argues that, in
light of the Supreme Court’s decision in
Rehaif v. United
States, the Government did not prove an essential element of
his crime—that he knew he was a convicted felon when he
possessed the firearm. Second, he argues that
§ 922(g)(1)
is unconstitutional. Third, he asserts that his prior convictions

Weapons

Determination by trial court, rather than jury,
that defendant's prior crimes of conviction were
committed on different dates, as could support
sentencing under Armed Criminal Career
Act (ACCA) for instant firearm possession
conviction, did not violate defendant's Sixth
Amendment right to jury trial; penalty provision
which simply authorized court to increase
sentence for recidivist, unlike the mere fact
of a prior conviction, was not required to be
submitted to jury. U.S. Const. Amend. 6;
U.S.C.A. § 924(e)(1).

Sean Owens appeals his conviction and 180-month sentence
for possessing a firearm as a convicted felon in violation

18

Attorneys and Law Firms
*918 Linda Julin McNamara, U.S. Attorney Service Middle District of Florida, U.S. Attorney's Office, Tampa, FL,
for Plaintiff-Appellee

under
Fla. Stat. § 893.13 do not qualify as “serious drug
offenses” under the Armed Career Criminal Act (ACCA)
or “controlled substance offenses” under the Sentencing
Guidelines. Fourth, he argues that the district court erred in
relying on non-elemental facts in sentencing him pursuant to
ACCA. Fifth, he argues that his sentence violates the Fifth and
Sixth Amendments. Because his arguments are foreclosed by
binding precedent in this Circuit, we affirm his conviction and
sentence.

*919 I.
[1] First, we consider Owens’s challenge to his indictment
and the sufficiency of the evidence in light of
Rehaif v.
United States, ––– U.S. ––––, 139 S. Ct. 2191, 204 L.Ed.2d
594 (2019). In this enumeration of error, Owens argues
that an essential element of his crime—knowledge of his
status as a convicted felon—was improperly omitted from his
indictment and from the jury instructions. He also argues that,
because the Government presented no evidence concerning
this element, the evidence was insufficient to sustain his
conviction.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

2a

United States v. Owens, 808 Fed.Appx. 917 (2020)

Ordinarily, we review de novo whether there is sufficient
evidence to support a conviction, whether the district court
misstated the law in its jury instruction, and whether an
indictment is insufficient. United States v. Baston, 818 F.3d
651, 660 (11th Cir. 2016); United States v. Joseph, 709 F.3d
1082, 1093 (11th Cir. 2013); United States v. Steele, 178 F.3d
1230, 1233 (11th Cir. 1999). Because Owens raises these
challenges for the first time on appeal, however—and because
we recently held in a published opinion that the failure to
allege knowledge of felon status is a non-jurisdictional issue
—we review for plain error. United States v. Moore, No.
17-14370, ––– F.3d ––––, ––––, 2020 WL 1527975, at *7
(11th Cir. Mar. 31, 2020);
1018, 1020 (11th Cir. 2019).
1

United States v. Reed, 941 F.3d
1

Although Owens did make a sufficiency of the
evidence challenge below, he “failed to raise the
specific challenge to the sufficiency of the evidence
that he now raises on appeal.” United States v.
Baston, 818 F.3d 651, 663 (11th Cir. 2016). At trial,
he challenged the sufficiency of the evidence as it
relates to the possession element of the crime—not
to his knowledge of his status as a convicted felon.
“When a defendant raises specific challenges to the
sufficiency of the evidence in the district court, but
not the specific challenge he tries to raise on appeal,
we review his argument for plain error.” Id. at 664.

To demonstrate plain error—a standard we have described
as a “daunting obstacle”—the appellant must show that an
error occurred that was plain and that affected his substantial
rights.
Reed, 941 F.3d at 1020–21. For us to conclude that
an error affected his substantial rights, Owens must show a
reasonable probability that, but for the error, the outcome
of the proceeding would have been different.
MolinaMartinez v. United States, ––– U.S. ––––, 136 S. Ct. 1338,
1343, 194 L.Ed.2d 444 (2016). “If he does so, we may,
in our discretion, correct the plain error if it seriously
affects the fairness, integrity, or public reputation of judicial
proceedings.”
Reed, 941 F.3d at 1021 (alterations adopted
and internal quotations marks omitted). We may consult
the whole record when considering the effect of an error
on a defendant’s substantial rights, including undisputed
facts in the presentence investigation report (PSI).
Id.
at 1021–22. “Facts contained in a PSI are undisputed and
deemed to have been admitted unless a party objects to
them before the sentencing court with specificity and clarity.”

United States v. Beckles, 565 F.3d 832, 844 (11th Cir.
2009) (quotation marks omitted).
It is unlawful for any person who has been convicted of
“a crime punishable by imprisonment for a term exceeding
one year” to possess a firearm or ammunition.

18 U.S.C.

§
§ 922(g)(1). A defendant who “knowingly” violates
922(g) is subject to up to ten years’ imprisonment. Id. § 924(a)
(2). A statutory minimum of 15 years’ imprisonment applies
section 922(g)” and who has
to “a person who violates
three previous convictions for a “violent felony” or a “serious
drug offense.” Id. § 924(e)(1).
In

Rehaif, the Supreme Court overturned Circuit precedent

and held that a prosecution under

18 U.S.C. § 922(g) and

*920
§ 924(a)(2) requires the Government to prove both
that the defendant “knew he possessed a firearm” and that he
“knew he belonged to the relevant category of persons barred
from possessing a firearm.”

Rehaif, 139 S. Ct. at 2200.

This decision abrogated our precedent in

United States v.

Jackson, which held that a
§ 922(g)(1) conviction did not
require the Government to prove a defendant’s knowledge of
his prior felony conviction.
1997).

120 F.3d 1226, 1229 (11th Cir.

Since
Rehaif, we have had occasion to consider a
§
922(g)(1) conviction in this Circuit that was obtained before
the Supreme Court clarified the law. In
United States v.
Reed, we rejected a defendant’s argument that his conviction
should be overturned because his “indictment failed to allege,
his jury was not instructed to find, and the government was
not required to prove that he knew he was a felon when he
possessed the firearm.”
941 F.3d at 1020. In that case we
reviewed the challenge for plain error because the defendant
failed to object at trial. Although we recognized that the
identified errors were plain after
Rehaif, we declined to
overturn Reed’s conviction because he could not “prove
that the errors affected his substantial rights or the fairness,
integrity, or public reputation of his trial.”
Id. at 1022.
Specifically, we held that Reed could not show that “but for
the errors, the outcome of his trial would have been different”
because the record, considered as a whole, established that

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

3a

United States v. Owens, 808 Fed.Appx. 917 (2020)

Reed knew that he was a felon.
Id. at 1021–22 (alterations
adopted). We noted the parties’ stipulation at trial that the
defendant had been convicted of a felony offense in the past,
his admission on cross-examination that he knew that he was
not permitted to have a gun, and his failure to object to the
PSI’s statement that he had served at least 18 years in prison
prior to his arrest for possessing a firearm.
Our decision in

As Owens himself acknowledges in his brief, this argument
is squarely foreclosed by our precedent. We have repeatedly
upheld
§ 922(g) as a constitutional exercise of the
Commerce Clause power. See Wright, 607 F.3d at 715. This
defeats his facial challenge.

Id. at 1021–22.

Reed controls this case and forecloses

Owens’s argument. Like the defendant in
Reed, Owens
failed to raise this objection at trial and must meet the
plain-error standard on appeal. In conducting this analysis,
we recognize that an error occurred in this case “when the
government was not required to prove that [Owens] knew
he was a felon.”
Id. at 1021. Nevertheless, under plain
error review, Owens cannot establish that this error affected
his substantial rights because he cannot show any reasonable
probability that the outcome of his trial would have been
different if the error had not occurred. The record—which we
consider as a whole for the purpose of plain error review—
leaves no doubt that Owens knew of his status as a convicted
felon. Owens stipulated to the fact that he had been convicted
of a crime punishable by a term of imprisonment in excess
of one year. And the undisputed facts in the PSI show that
Owens served more than four years in prison for a number of
felony convictions. Because he served several years in prison
for felony crimes, there is no reasonable argument that he
was unaware of his felony status. And because the record
establishes that Owens knew that he was a felon, “he cannot
prove that the errors affected his substantial rights or the
fairness, integrity, or public reputation of his trial.”
1022.

Id. at

[2] We have also held that
§ 922(g) is constitutional as
applied where the government proves a “minimal nexus”
to interstate commerce. Id. This can be accomplished
by demonstrating that the firearm traveled in interstate
commerce. Id. at 715–16. In Wright, for example, we
determined that a firearm manufactured outside of Florida
but later discovered in the defendant’s possession in Florida
necessarily traveled in interstate commerce and satisfied the
minimal-nexus requirement. Id. at 716. Here, the Government
presented testimony at trial establishing that the firearm was
manufactured in Connecticut and was shipped to Florida
before it was found in Owens’s possession. Consequently, it
traveled in interstate commerce and satisfied the minimalnexus requirement. This defeats his as-applied challenge.

III.
In his third enumeration of error, Owens argues that his
sentence was improperly increased as a result of his previous
convictions. Specifically, he argues that his drug convictions
under
Florida Statute § 893.13 should not qualify as
“serious drug offense[s]” under ACCA or as “controlled
substance offense[s]” under the Sentencing Guidelines.
Although we ordinarily review these questions of law de
novo, we review arguments not raised in the district court
for plain error. See
United States v. Weeks, 711 F.3d
1255, 1261 (11th Cir. 2013), abrogated on other grounds by

II.
Next, we consider Owens’s challenge to the constitutionality
of
18 U.S.C. § 922(g)(1)—the statute that prohibits
convicted felons from possessing firearms. In this argument,
Owens contends that this law exceeds Congress’s authority
under the Commerce Clause and is unconstitutional both
facially and as applied. Although we would normally review
a constitutional *921 challenge such as this de novo, we
review this challenge for plain error because it was raised for
the first time on appeal. United States v. Wright, 607 F.3d 708,
715 (11th Cir. 2010).

Descamps v. United States, 570 U.S. 254, 133 S.Ct. 2276,
186 L.Ed.2d 438 (2013).
The district court did not plainly err because Owens’s
argument is foreclosed by our precedent as well as a recent
decision by the Supreme Court. In

United States v. Smith,

we explicitly held that a conviction under
Fla. Stat. §
893.13(1) qualifies as a “serious drug offense” under ACCA
and a “controlled substance offense” under
4B1.2(b).

U.S.S.G. §

775 F.3d 1262, 1266–68 (11th Cir. 2014). The

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

4a

United States v. Owens, 808 Fed.Appx. 917 (2020)

2009. Accordingly, the district court did not plainly err in
determining that his crimes were committed on “occasions

Supreme Court recently affirmed one of our decisions relying
on

Smith. See

Shular v. United States, ––– U.S. ––––,

different from one another.”

Smith
140 S. Ct. 779, ––– L.Ed.2d –––– (2020). Because
controls this case, we reject Owens’s argument on this point.

18 U.S.C. § 924(e)(1).

V.
IV.
[3] Owens also argues—for the first time on appeal—that
the district court improperly sentenced him under ACCA
by concluding that he committed three prior offenses “on
occasions different from one another.”
18 U.S.C. § 924(e)
(1). He argues that because the dates of his prior offenses
were not elements of the crime under Florida law, the district
court could not consider them in imposing sentence under
the ACCA. We review for plain error and conclude that this
argument is squarely foreclosed by our precedent.
To qualify for an enhanced sentence under ACCA, a
defendant’s prior convictions must have been for crimes
“committed on occasions different from one another.”
18
U.S.C. § 924(e)(1). This means that the prior convictions must
have arisen from crimes that are temporally distinct. United
States v. Longoria, 874 F.3d 1278, 1281 (11th Cir. 2017). To
determine whether *922 crimes were committed on different
occasions, a court “is generally limited to examining the
statutory definition of the offense of the prior conviction,
charging document, written plea agreement, transcript of plea
colloquy, and any explicit factual finding by the trial judge to
which the defendant assented.” Longoria, 874 F.3d at 1281
(quoting
Shepard v. United States, 544 U.S. 13, 16, 125
S.Ct. 1254, 161 L.Ed.2d 205 (2005)) (alterations adopted).
In United States v. Longoria, we rejected the very argument
that Owens asserts here. 874 F.3d at 1281–83. We held
that as long as the district court relies on Shepard-approved
documents, it may determine whether the offenses were
committed on different occasions. Id.
Here, the dates on the charging documents show that Owens’s
crimes of conviction were temporally distinct. He sold
cocaine on March 13, 2009; March 17, 2009; and March 20,
End of Document

[4]
[5] Finally, Owens argues that his Fifth and Sixth
Amendment rights were violated because the fact that his
prior offenses were committed on separate occasions was not
charged in the indictment or proven to the jury. Although we
review for plain error because this argument was not raised
below, the standard of review is immaterial; the argument
conflicts with our binding precedent.
Facts that increase mandatory minimum sentences must
be submitted to a jury and proven beyond a reasonable
Alleyne v. United States, 570 U.S. 99, 114–
doubt.
16, 133 S.Ct. 2151, 186 L.Ed.2d 314 (2013). A “penalty
provision,” however, “which simply authorizes a court to
increase the sentence for a recidivist,” need not be alleged
in the indictment or submitted to the jury.
AlmendarezTorres, 523 U.S. 224, 226, 118 S.Ct. 1219, 140 L.Ed.2d
350 (1998). We have repeatedly held that the fact of a prior
conviction need not be alleged in an indictment or proven
to a jury for a sentence enhancement to apply. See, e.g.,
United States v. Sparks, 806 F.3d 1323, 1350 (11th Cir.
2015). And we have “expressly rejected the notion that the
ACCA’s different-occasions determination, unlike the mere
fact of a prior conviction, must be submitted to a jury and
proven beyond a reasonable doubt.”

Weeks, 711 F.3d

at 1259 (citing
United States v. Spears, 443 F.3d 1358,
1361 (11th Cir. 2006)). Accordingly, the district court did
not plainly err by relying on Owens’s prior convictions to
sentence him under the ACCA’s enhanced-penalty provision.
AFFIRMED.
All Citations
808 Fed.Appx. 917

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

5a

